DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

ASSOCIATE GENERAL COUNSEL

TODD B. TATELMAN
PRINCIPAL DEPUTY GENERAL COUNSEL

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL
5140 O’NEILL HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

SARAH E. CLOUSE
ASSOCIATE GENERAL COUNSEL

STACIE M. FAHSEL
ASSOCIATE GENERAL COUNSEL

ERIC R. COLUMBUS
SPECIAL LITIGATION COUNSEL

August 5, 2021
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Janet L. Yellen, Secretary of the Treasury, et al. v. United States House
of Representatives, No. 20-1738

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was
docketed on June 15, 2021. On July 6, respondent United States House of
Representatives requested a 30-day extension of time in which to respond to the
petition, which the Court granted, making the response due on August 16,
2021. Pursuant to Rule 30.4, respondent hereby requests an additional 14-day
extension of time in which to respond to the petition, to and including August
30, 2021. Respondent seeks this extension at the request of counsel for
petitioners, who consent to the extension.
Respectfully submitted,

____________________________
Douglas N. Letter
General Counsel
Counsel of Record
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
cc:

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice

